U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 20, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Giovanni Montijo-Dominguez v. United States of America,
S.CtNo. 19-109

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 23,
2019, and placed on the docket on July 25, 2019. The government's response is due on August
26, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 25, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0 109
MONTIJO-DOMINGUEZ, GIOVANNI
USA

MICHAEL B. KIMBERLY
MCDERMOTT, WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKJMBERLY@MWE.COM
WENDY CURTIS PALEN
PALEN LAW OFFICES, LLP
P0 BOX 156
GLENDO, WY 82213
307-735-4022

